                 Many Aspects of the Field Examination
                  Reengineering Pilot Were Effectively
              Implemented; However, Continued Monitoring
                Is Needed During the Nationwide Rollout

                                     June 2004

                       Reference Number: 2004-30-116




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                           June 30, 2004


       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION


       FROM:                 Gordon C. Milbourn III
                             Acting Deputy Inspector General for Audit

       SUBJECT:              Final Audit Report - Many Aspects of the Field Examination
                             Reengineering Pilot Were Effectively Implemented; However,
                             Continued Monitoring Is Needed During the Nationwide Rollout
                             (Audit # 200330024)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       Field Examination Reengineering Pilot. The overall objective of this review was to
       determine whether the Field Examination Reengineering Pilot met its established goals.
       This review was part of our efforts to provide ongoing input during the Small
       Business/Self-Employed (SB/SE) Division’s examination reengineering process.
       In summary, the SB/SE Division initiated an indepth review of the examination process
       to reengineer and/or redesign processes, products, and services. The primary objective
       was to align examination procedures with the objectives of the organization: customer
       satisfaction, employee satisfaction, and increased business results. As part of this
       review, the SB/SE Division conducted the Field Examination Reengineering Pilot in
       which it tested new Field Examination function procedures in 15 groups located in the
       state of New York. The Pilot was conducted between October 2002 and March 2003.
       In November 2003, after evaluating Pilot results and modifying certain processes and
       procedures, the SB/SE Division began to roll out the reengineered process to Field
       Examination offices across the nation. The nationwide rollout is expected to be
       completed by the end of Fiscal Year 2004.
       Many aspects of the Pilot were effectively implemented. The Field Examination
       Reengineering Project Team provided effective oversight of the Pilot implementation
       and ensured the new process was being followed and working as intended. The
       reengineered process provided enhanced uniformity in workpaper documentation. Also,
                                                        2

Concurrence1 and Engagement2 Meetings were designed to promote greater
collaboration and cooperation among group managers, revenue agents, and taxpayers.
However, results from the Pilot showed that three of the five goals were either not met
or not fully measured. The Pilot cases did not result in decreased cycle time per case,
and there was no quantitative analysis to determine whether employee and customer
satisfaction measures were maintained or increased in comparison with using the old
Field Examination function process. The reengineered examination process achieved
the goals of reduced examination time and increased examination quality measures.
However, results originally reported by the Project Team for these two goals were
overstated.
Two of the reengineered processes could be improved. The use of Engagement
Agreements3 is an optional procedure but would help ensure taxpayers are properly
informed about the examination process and mutual expectations with the IRS. Also,
controls could be strengthened to ensure Mutual Commitment Dates (MCD)4 are
provided to the taxpayers and monitored by the group managers.
Although we do not disagree with the decision to roll out the Pilot nationwide, we do
believe SB/SE Division management should carefully monitor the nationwide rollout to
ensure all Examination function reengineering goals are met.
We recommended the Director, Compliance, SB/SE Division, continue to measure the
impact of the new procedures on hours per return, cycle time, and examination quality.
The Director should conduct formal surveys to measure employee satisfaction and
customer satisfaction, in an effort to determine whether employees and customers think
the new procedures have improved the examination process.
The Director should require that revenue agents prepare Engagement Agreements and
provide them to the taxpayers or their representatives. In instances in which an
Engagement Agreement is not necessary, the revenue agent should properly document
the case file as to the reason why one is not needed. The revenue agents should also
be required to record the MCD on the Engagement Agreement. The Director should
add the MCD as a field on the Examination Returns Control System (ERCS)5 and direct
group managers to monitor the MCDs to identify potential timeliness and inventory
management issues.



1
  Group Managers hold Concurrence Meetings with revenue agents for each case to promote collaboration and
provide assurance that revenue agents properly planned for examining issues selected for verification.
2
  Revenue agents hold Engagement Meetings with taxpayers or their representatives to provide a clear understanding
of the actions, information, and expectations related to an examination.
3
  An Engagement Agreement is a written summary of revenue agent and taxpayer expectations regarding an
examination that were discussed during an Engagement Meeting.
4
  Mutual Commitment Dates are a result of revenue agents and taxpayers working together to determine the amount
of time it will take to complete an examination.
5
  The ERCS is a computer system the Examination function uses to enter and update controls over tax returns in the
examination stream.
                                           3

Management’s Response: The Director, Compliance, SB/SE Division, agreed with
three of our five recommendations and has taken, or plans to take, appropriate
corrective actions. SB/SE Division management has developed a performance
measures and monitoring methodology which will measure the impact of reengineered
process changes on business results. This plan, which was put into place on
May 20, 2004, includes a trend analysis of compliance area business results
pre-implementation and post-implementation, a comparative case review process for
pre-implementation and post-implementation closed examinations, and a compliance
area site visit plan. The plan also includes site visits and employee and focus group
surveys to quantitatively determine the level of employee satisfaction with the
reengineered process. The IRS currently plans to administer the survey to employees
6 months after Field Examination Reengineering has been implemented in their
Compliance Area. The performance measures and monitoring methodology also
includes a plan to analyze data from the ongoing customer survey process, to
quantitatively determine the level of customer satisfaction with the reengineered
process.
The Director, Compliance, SB/SE Division, did not agree at this time to require revenue
agents to prepare Engagement Agreements and then provide them to the taxpayers or
their representatives. During the early stages of the Field Examination Reengineering
design and pilot, they considered requiring revenue agents to prepare, sign, and share
Engagement Agreements with taxpayers or their representatives. However, they
encountered strong negative feedback from representatives and examiners who
focused on the signature process of the Agreements rather than the communication
they were trying to foster. As a result, SB/SE Division management determined
mandatory use of signed Engagement Agreements to be counter-productive to their
redesign effort at that time.
Also, SB/SE Division management did not agree to require revenue agents to record
the MCD on the Engagement Agreement, add the MCD as a field on the ERCS, and
direct group managers to monitor MCDs to identify potential timeliness and inventory
management issues. They believe current procedures are sufficient to ensure revenue
agents establish and provide the MCDs to taxpayers or their representatives. They also
believe requirements for revenue agents to update the Activity Record and notify the
group manager and taxpayer of changes to the MCD of more than 30 calendar days are
sufficient for group managers to monitor the MCD. Management’s complete response
to the draft report is included as Appendix IV.
Office of Audit Comment: We still believe revenue agents should be required to prepare
Engagement Agreements and provide them to the taxpayers or their representatives.
Engagement Agreements would help ensure revenue agents and taxpayers or their
representatives clearly understand their responsibilities and expectations. We also
continue to believe additional controls are necessary to ensure revenue agents discuss
and provide MCDs to taxpayers or their representatives. Additional controls would help
ensure group managers take a more proactive approach to monitoring MCDs for
timeliness and would provide them with a systemic means by which to do this. While
                                           4

we still believe our recommendations are worthwhile, we do not intend to elevate our
disagreement concerning them to the Department of the Treasury for resolution.
Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Philip
Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (215) 516-2341.
     Many Aspects of the Field Examination Reengineering Pilot Were Effectively
Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout




                                                  Table of Contents


Background ............................................................................................... Page 1
Many Aspects of the Field Examination Reengineering Pilot
Were Effectively Implemented ................................................................... Page 3
Measured Results of the Field Examination Reengineering Pilot Process
Met Expectations for Only Two of the Five Goals...................................... Page 5
         Recommendations 1 through 3: .................................................... Page 9

Two of the Field Examination Reengineering Processes
Could Be Improved.................................................................................... Page 10
         Recommendation 4: ...................................................................... Page 12
         Recommendation 5: ...................................................................... Page 13

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 14
Appendix II – Major Contributors to This Report........................................ Page 16
Appendix III – Report Distribution List ....................................................... Page 17
Appendix IV – Management’s Response to the Draft Report .................... Page 18
       Many Aspects of the Field Examination Reengineering Pilot Were Effectively
  Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

                                 The Small Business/Self-Employed (SB/SE) Division is
Background
                                 organized into three primary functions: Taxpayer Education
                                 and Communication, Customer Account Services, and
                                 Compliance. The Compliance function directs all
                                 post-filing activities such as examination of returns. Under
                                 the Compliance function, revenue agents in the Field
                                 Examination function determine the correct income levels
                                 and corresponding tax liabilities for SB/SE Division
                                 taxpayers by conducting field examinations primarily at the
                                 taxpayer’s place of business.
                                 In 2001, the SB/SE Division initiated an indepth review of
                                 the examination process to reengineer and/or redesign
                                 processes, products, and services. The primary objective
                                 was to align examination procedures with the objectives of
                                 the organization: customer satisfaction, employee
                                 satisfaction, and increased business results.
                                 The Examination Reengineering Project Team consisted of
                                 representatives from the Internal Revenue Service (IRS) and
                                 the consulting firms of Booz, Allen & Hamilton and
                                 Deloitte and Touche. The Project Team developed various
                                 recommendations to improve efficiency and effectiveness in
                                 the current examination processes. As part of this review,
                                 the SB/SE Division conducted the Field Examination
                                 Reengineering Pilot, in which it tested new Field
                                 Examination function procedures.
                                 The new procedures and tools used during the Pilot included
                                 the following:
                                     •    The Examination Workpapers Index (Form 4318)
                                          serves as the table of contents for the case file.
                                     •    Lead Sheets identify steps that should be taken or
                                          considered during an examination.
                                     •    Risk Analysis Worksheets are used for modifying
                                          the scope1 of the examination.
                                     •    Activity Forecasts are used to estimate the time
                                          necessary to complete the examination.


                                 1
                                  The scope represents the issues on a tax return that were selected for
                                 verification during the examination process.
                                                                                                   Page 1
     Many Aspects of the Field Examination Reengineering Pilot Were Effectively
Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

                                  •   Concurrence Meetings are held by group managers
                                      with revenue agents for each case to promote
                                      collaboration and provide assurance that revenue
                                      agents properly planned for examining issues
                                      selected for verification.
                                  •   Engagement Meetings are held by revenue agents
                                      with taxpayers or their representatives to provide a
                                      clear understanding of the actions, information, and
                                      expectations related to an examination.
                                  •   Engagement Agreements are unsigned documents of
                                      mutual expectations between revenue agents and
                                      taxpayers or their representatives to complete
                                      examinations timely and thoroughly.
                               The Field Examination Reengineering Pilot was conducted
                               between October 2002 and March 2003 in 15 groups located
                               in the state of New York. Revenue agents started and
                               closed approximately 122 examinations during the Pilot.
                               The project goals were to:
                                  •   Reduce hours per return.
                                  •   Reduce cycle time.
                                  •   Maintain or improve examination quality.
                                  •   Maintain or increase employee satisfaction.
                                  •   Maintain or increase customer satisfaction.
                               In November 2003, after making revisions to some of the
                               processes and procedures based on results from the Pilot,
                               the SB/SE Division began to roll out the reengineered
                               process to Field Examination offices across the nation.
                               It is implementing the rollout on a staggered basis and
                               expects to complete deployment by the end of Fiscal
                               Year (FY) 2004.
                               This review was performed at the IRS National
                               Headquarters in New Carrollton, Maryland, and in the
                               New York Area Office during the period August 2003
                               through January 2004. The audit was conducted in
                               accordance with Government Auditing Standards. Detailed
                               information on our audit objective, scope, and methodology


                                                                                    Page 2
       Many Aspects of the Field Examination Reengineering Pilot Were Effectively
  Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

                                 is presented in Appendix I. Major contributors to the report
                                 are listed in Appendix II.
                                 Many aspects of the Field Examination Reengineering Pilot
Many Aspects of the Field
                                 were effectively implemented. The Pilot had effective
Examination Reengineering
                                 management oversight; provided enhanced uniformity in
Pilot Were Effectively
                                 workpaper documentation; and promoted greater
Implemented
                                 collaboration and cooperation among group managers,
                                 revenue agents, and taxpayers.
                                 Management oversight was effective
                                 The Field Examination Reengineering Project Team
                                 provided effective oversight of the Pilot implementation.
                                 To ensure the reengineered process was being followed and
                                 working as intended, the Project Team conducted four site
                                 visits to each group during the Pilot. The agenda for the site
                                 visits included meeting with group managers and revenue
                                 agents to discuss process issues, clarify responsibilities, and
                                 obtain feedback. The Project Team also collected summary
                                 information on cases in process and conducted reviews on a
                                 sample of cases to identify and correct any problems. At the
                                 end of each visit, the Project Team provided feedback to the
                                 group to identify what was going well and what needed
                                 improvement. The Project Team then evaluated the results
                                 of the visits and made adjustments to the process as
                                 necessary.
                                 Adjustments made to the reengineered process included
                                 revising the Risk Analysis Worksheet to eliminate its
                                 susceptibility to manipulation, providing flexibility in the
                                 timing of the Concurrence Meeting, and revising Lead
                                 Sheets to eliminate duplicate steps.
                                 In addition to the site visits, the Project Team held weekly
                                 teleconferences with Territory and group managers. The
                                 Project Team provided results, gave positive reassurances,
                                 obtained feedback, addressed concerns, and advised of
                                 procedural changes.
                                 Also, upon completion of the Pilot, the Project Team
                                 requested the Office of Performance Excellence to conduct
                                 focus group interviews with participants in the Field
                                 Examination Reengineering Pilot. It interviewed 16 focus
                                 groups that involved 77 revenue agents and 14 group
                                 managers. In general, it gathered feedback relating to the
                                                                                         Page 3
     Many Aspects of the Field Examination Reengineering Pilot Were Effectively
Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

                               Pilot and provided the results to the Project Team to assist
                               in decision making regarding the national rollout of the
                               reengineered process.
                               The reengineered process provided enhanced uniformity
                               in workpaper documentation
                               The Field Examination Reengineering Project Director
                               indicated that, prior to development of the reengineered
                               process, numerous packages were available to revenue
                               agents to record examination activities. As a result, there
                               were inconsistent workpaper documentation policies among
                               the various offices.
                               To update all these packages would have required a lot of
                               work and time. Also, when a case is transferred between
                               offices, the receiving office would have to interpret another
                               office’s method of file organization. To be more efficient
                               and consistent, the Project Team selected one package to be
                               used by all revenue agents. This created a common
                               framework for documenting workpaper files.
                               As part of the common framework, the Project Team
                               developed a series of workpapers that serve as a guide for
                               the reengineered examination process. It redesigned
                               Form 4318, created Lead Sheets for issues to be examined,
                               developed a Risk Analysis Worksheet for modifying the
                               examination scope, established an Initial Appointment
                               Meeting Agenda, and directed revenue agents to work with
                               taxpayers in determining an Estimated Completion Date.
                               We randomly sampled 42 closed Pilot cases2 and
                               determined revenue agents and group managers generally
                               used the Pilot procedures and tools. We noted that they did
                               not always use the Risk Analysis Worksheet or Engagement
                               Agreement. However, the Risk Analysis Worksheet had to
                               be revised by the IRS to eliminate a manipulation weakness.
                               Also, the Engagement Agreement was an optional tool
                               under the Pilot.



                               2
                                We randomly sampled and requested 50 closed Pilot cases. However,
                               we received returns for only 45 cases. Upon review, we determined that
                               only 42 cases included documentation to indicate they were worked
                               using the Pilot procedures.
                                                                                             Page 4
       Many Aspects of the Field Examination Reengineering Pilot Were Effectively
  Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

                                 Concurrence and Engagement Meetings were designed
                                 to promote collaboration and cooperation
                                 Group managers are directed to conduct Concurrence
                                 Meetings with revenue agents to ensure proper planning has
                                 occurred for addressing issues selected for verification on a
                                 tax return. These Meetings should promote greater
                                 collaboration between group managers and revenue agents.
                                 In turn, revenue agents are directed to conduct Engagement
                                 Meetings with taxpayers to explain the examination process,
                                 identify the issues to be examined, and establish a Mutual
                                 Commitment Date (MCD) for completing the examination.
                                 These Meetings should encourage cooperation between the
                                 revenue agent and taxpayer and/or Power of Attorney. Our
                                 review of the sample of 42 closed Pilot cases determined
                                 that Concurrence and Engagement Meetings were generally
                                 being held.
                                 While many aspects of the Pilot were effectively
                                 implemented, measured results show the Pilot met only two
                                 of five goals. We also identified two processes that could
                                 be improved. Although we do not disagree with the
                                 decision to roll out the Pilot nationwide, we do believe
                                 SB/SE Division management should carefully monitor the
                                 nationwide rollout to ensure all Examination function
                                 reengineering goals are met.
                                 The project goals were to reduce hours per return, reduce
Measured Results of the Field
                                 cycle time, maintain or improve examination quality,
Examination Reengineering
                                 maintain or increase employee satisfaction, and maintain or
Pilot Process Met Expectations
                                 increase customer satisfaction. However, we determined the
for Only Two of the Five Goals
                                 Pilot produced measurable results that met only two of these
                                 goals.
                                 The average number of hours spent on Pilot cases
                                 decreased, but cycle time increased
                                 To measure business results, the Project Team compared the
                                 Examination Quality Measurement System (EQMS)3 results




                                 3
                                  The EQMS is the program used by the SB/SE Division to measure
                                 examination quality and assess long-term trends of performance.
                                                                                             Page 5
     Many Aspects of the Field Examination Reengineering Pilot Were Effectively
Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

                               for Pilot and selected non-Pilot cases.4 The Project Team
                               reported that the reengineered examination process
                               generated a 7 percent savings in direct examination time and
                               a 4 percent savings in cycle time. However, our analysis of
                               EQMS data indicated the reengineered examination process
                               generated only a 5 percent savings in direct examination
                               time and incurred a 13 percent increase in cycle time.
                               We evaluated the data the Project Team used to determine
                               the results of the Pilot and identified two causes for these
                               differences. The main factor is that the Project Team
                               included 9 cases that were not identified as Pilot cases on
                               the EQMS database, and excluded 11 cases that were
                               identified as Pilot cases on the EQMS database.
                               A secondary factor is that there were errors in the Project
                               Team’s calculation of results. Errors were caused by double
                               counting the results of one case, including inaccurate data
                               for another case, and using the wrong data field to calculate
                               total cycle time.
                               In measuring the effectiveness of the reengineered
                               examination process, it should also be noted that it takes
                               more time for revenue agents to complete more complex
                               examinations. Although the Pilot lasted for 6 months, there
                               may not have been sufficient time in which to close such
                               cases by the time the Pilot ended. As a result, the direct
                               examination time and cycle time may not have been fully
                               measured. We believe direct examination time and cycle
                               time may become even higher as these complex cases are
                               closed. Revenue agents started and closed approximately
                               122 examinations during the Pilot. As of April 1, 2003,
                               there were approximately 1,092 Pilot cases still in process.
                               Quality improved, but the Project Team did not
                               properly measure the increase
                               To measure examination quality, the Project Team
                               compared EQMS results for cases worked under the Pilot
                               with those for cases worked by the Pilot groups the prior



                               4
                                Pilot results (October 1, 2002, through March 31, 2003) =
                               114 EQMS-reviewed closed cases; National non-Pilot results
                               (FY 2003) = 82 EQMS-reviewed closed cases.
                                                                                            Page 6
     Many Aspects of the Field Examination Reengineering Pilot Were Effectively
Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

                               year.5 The Project Team reported that the reengineered
                               examination process generated a 9 percent improvement in
                               overall examination quality measures. However, our
                               analysis of EQMS data indicated the reengineered
                               examination process generated only a 6 percent
                               improvement.
                               As noted above, we identified differences in the cases used
                               by the Project Team to measure current and prior year
                               results of the Pilot groups. As a result, quality measures
                               were overstated.
                               Results did not identify whether employee satisfaction
                               was maintained or increased
                               The Project Team did not conduct a formal survey process
                               with revenue agents to measure employee satisfaction.
                               However, it did use a variety of communication tools to
                               capture employee recommendations for improvements and
                               potential enhancements to the Pilot. It conducted weekly
                               teleconference calls, made four site visits, and solicited
                               comments through the Field Examination Reengineering
                               web site. Group managers and revenue agents used the
                               opportunities to provide constructive suggestions for
                               improving the reengineered process.
                               In addition, the Project Team requested the Office of
                               Performance Excellence to conduct post-Pilot focus group
                               sessions. The purpose of the focus groups was to gather
                               feedback from the Pilot participants that would help the
                               Project Team evaluate the Pilot and make decisions
                               regarding nationwide rollout of the reengineered process.
                               The Office of Performance Excellence stated, however, that
                               it did not measure employee satisfaction as part of the focus
                               group sessions. It might be possible to make inferences
                               regarding employee satisfaction based on some of the
                               responses; however, there was no direct comparison
                               between the Pilot process and the prior Field Examination
                               function process.



                               5
                                EQMS Pilot results (October 1, 2002, through March 31, 2003) =
                               114 closed case reviews; EQMS FY 2002 results (Pilot groups only) =
                               127 closed case reviews.
                                                                                            Page 7
     Many Aspects of the Field Examination Reengineering Pilot Were Effectively
Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

                               These efforts were successful in identifying employee
                               attitudes toward the reengineered processes and what can be
                               done to improve them. The Project Team believes that,
                               based on all of these efforts, employees are satisfied with
                               the new Field Examination function process. However, the
                               Project Team did not conduct a quantitative analysis of
                               employee satisfaction (through the form of a survey) that
                               would serve as a better measurement system for determining
                               whether employees are more satisfied than they were using
                               the old Field Examination function process.
                               Results could not be appropriately measured for
                               customer satisfaction due to an insufficient number of
                               responses received on customer surveys mailed
                               The Project Team collected customer feedback on the
                               reengineered process through two communications methods:
                               customer surveys and presentations by the Taxpayer
                               Education and Communication office.
                               Customer satisfaction surveys were mailed to taxpayers, or
                               their representatives, for each of the cases closed under the
                               Pilot. The Project Team used the national survey on
                               customer satisfaction to allow for comparison to prior
                               results for taxpayers who were not part of the Pilot.
                               However, only 14 customers returned the surveys, and the
                               Project Team appropriately concluded this was an
                               insufficient sample size for a valid analysis. There were no
                               other actions taken to obtain responses from the remaining
                               customers of the Pilot cases.
                               Taxpayer Education and Communication office
                               representatives conducted presentations throughout the area
                               in which the Pilot was conducted. They met with numerous
                               practitioners, Certified Public Accountants, and Enrolled
                               Agents. This effort was successful in identifying
                               practitioner attitudes toward the reengineered process.
                               However, customer satisfaction needs to be continually
                               monitored throughout the nationwide rollout to determine if
                               the goal of maintaining or improving customer satisfaction
                               has truly been met.




                                                                                      Page 8
     Many Aspects of the Field Examination Reengineering Pilot Were Effectively
Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

                               Recommendations

                               The Director, Compliance, SB/SE Division, should:
                               1. Continue to measure the impact of the new procedures
                                  on hours per return, cycle time, and examination quality
                                  as the procedures are implemented on a nationwide basis
                                  and ensure the measures are accurate.
                               Management’s Response: SB/SE Division management has
                               developed a performance measures and monitoring
                               methodology which will measure the impact of reengineered
                               process changes on business results. This plan, which was
                               put into place on May 20, 2004, includes a trend analysis of
                               compliance area business results pre-implementation and
                               post-implementation, a comparative case review process for
                               pre-implementation and post-implementation closed
                               examinations, and a compliance area site visit plan.
                               2. Conduct formal surveys to measure employee
                                  satisfaction and determine whether the measure was
                                  improved as a result of the reengineered process.
                               Management’s Response: SB/SE Division management has
                               developed a performance measures and monitoring
                               methodology that includes site visits and employee and
                               focus group surveys to quantitatively determine the level of
                               employee satisfaction with the reengineered process. The
                               employee satisfaction survey is being developed as part of
                               the implementation monitoring responsibilities of the Field
                               Examination Reengineering Advisory Committee. The IRS
                               currently plans to administer the survey to employees
                               6 months after Field Examination Reengineering has been
                               implemented in their Compliance Area.
                               3. Continue to conduct surveys of taxpayers who undergo
                                  the reengineered examination process to measure
                                  customer satisfaction.
                               Management’s Response: SB/SE Division management has
                               developed a performance measures and monitoring
                               methodology that includes a plan to analyze data from the
                               ongoing customer survey process to quantitatively
                               determine the level of customer satisfaction with the
                               reengineered process.

                                                                                    Page 9
         Many Aspects of the Field Examination Reengineering Pilot Were Effectively
    Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

                                   Many of the reengineered procedures and tools, as noted
Two of the Field Examination
                                   earlier, were generally used by the revenue agents and group
Reengineering Processes Could
                                   managers and provided enhanced uniformity. However,
Be Improved
                                   controls could be strengthened by making Engagement
                                   Agreements mandatory and for providing and monitoring
                                   MCDs.
                                   Engagement Agreements are not mandatory
                                   An Engagement Agreement is a written summary of
                                   revenue agent and taxpayer expectations regarding an
                                   examination that were discussed during an Engagement
                                   Meeting. It identifies the issues to be examined, steps to be
                                   taken, expected time period for completion, and
                                   responsibilities of all parties in working toward completing
                                   the examination timely and thoroughly.
                                   The major objectives of an Engagement Meeting are to
                                   encourage cooperation between the revenue agent and
                                   taxpayer, promote customer satisfaction, and help the
                                   taxpayer understand what will transpire during the
                                   examination. An Engagement Agreement is the culmination
                                   of this Meeting.
                                   When implementing the procedures nationwide, the Project
                                   Team decided to make the Engagement Agreement optional
                                   rather than mandatory, due to resistance from the
                                   employees, the taxpayers, and the National Treasury
                                   Employees Union. The concern was that managers might
                                   be critical of employees if certain expectations of the
                                   Engagement Agreement were not met. However, the
                                   Engagement Agreement is not a contract. It is an unsigned
                                   document subject to change if there are changes in scope or
                                   unforeseen circumstances.
                                   Our review of the sample of 42 closed cases from the Pilot
                                   determined that 34 could have had a formal Engagement
                                   Agreement prepared. However, only 3 of the 34 cases had a
                                   formal Engagement Agreement prepared and documented in
                                   the case file. Without an Engagement Agreement, the
                                   effectiveness of the Engagement Meeting could be reduced.
                                   Since no documentation of the expectations would exist,
                                   revenue agents and taxpayers may not clearly understand
                                   the expectations and may not be diligent in ensuring they
                                   each meet the expectations discussed. As a result, the

                                                                                         Page 10
     Many Aspects of the Field Examination Reengineering Pilot Were Effectively
Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

                               objectives and goals of the Engagement Meeting may not be
                               achieved.
                               Controls could be strengthened to ensure MCDs are
                               provided to taxpayers and monitored by group
                               managers
                               In a report on customer satisfaction,6 Examination function
                               customers believed the time spent on an examination and
                               the length of the examination process are the third and
                               fourth highest improvement priorities, respectively. The
                               Project Director, during a February 20, 2002, discussion on
                               the status of the Field Examination Reengineering Project,
                               stated that it was reasonable for a world-class tax
                               organization to advise taxpayers how long an examination
                               will last.
                               Under the reengineered process, revenue agents are directed
                               to work with taxpayers in determining the amount of time it
                               will take to complete an examination. In our review of
                               42 closed Pilot cases, we determined that revenue agents
                               established MCDs and documented the dates in the case
                               histories. However, there is no mechanism to ensure agents
                               provide the MCDs to the taxpayers. As a result, we could
                               not determine whether the agents informed the taxpayers of
                               the MCDs in a majority of the cases.
                               During the Pilot, the Engagement Agreement template was
                               designed to include a paragraph relating to the MCD.
                               However, as previously discussed, of the 34 closed Pilot
                               cases reviewed that could have had an Engagement
                               Agreement prepared, only 3 did because these Agreements
                               are optional.
                               In addition, managers are responsible for ensuring revenue
                               agents are working cases timely and for managing their
                               groups’ inventories. To aid in performing these duties,
                               managers could monitor each case’s MCD. However, there
                               is no requirement for managers to monitor this date; nor is
                               there a mechanism in place to allow for such monitoring,
                               since the date is not identified in any of the systems used by


                               6
                                IRS Customer Satisfaction Survey, SB/SE Field Examination National
                               Report, dated May 2003, conducted by Pacific Consulting Group
                               between October and December 2002.
                                                                                          Page 11
     Many Aspects of the Field Examination Reengineering Pilot Were Effectively
Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

                               managers to control cases. Group managers identified this
                               issue as a concern during the focus group sessions. They
                               indicated there was no process to track MCDs unless they
                               developed one for themselves.
                               All 42 cases we reviewed had an MCD established. Only
                               4 of the cases were not completed by the MCD, with late
                               completion in these cases ranging from 4 to 34 days. While
                               our limited review of Pilot cases showed the MCDs were
                               generally met, there is no assurance that these dates will be
                               met as the procedures are rolled out nationwide.
                               Unless employees are held accountable for establishing
                               accurate MCDs and providing them to taxpayers, the
                               benefits of establishing these dates may not be realized. As
                               a result, customer satisfaction could decline, and the
                               managers’ ability to effectively manage inventories could be
                               limited.

                               Recommendations

                               The Director, Compliance, SB/SE Division, should:
                               4. Require revenue agents to prepare Engagement
                                  Agreements and then provide them to the taxpayers or
                                  their representatives. In instances in which an
                                  Engagement Agreement is not appropriate, the revenue
                                  agent should document the reason why an Agreement
                                  was not prepared.
                               Management’s Response: SB/SE Division management did
                               not agree at this time to implement our recommendation.
                               During the early stages of the Field Examination
                               Reengineering design and pilot, they considered requiring
                               revenue agents to prepare, sign, and share Engagement
                               Agreements with taxpayers or their representatives.
                               However, they encountered strong negative feedback from
                               representatives and examiners who focused on the signature
                               process of the Agreements rather than the communication
                               they were trying to foster. As a result, SB/SE Division
                               management determined mandatory use of signed
                               Engagement Agreements to be counter-productive to their
                               redesign effort at that time.


                                                                                    Page 12
     Many Aspects of the Field Examination Reengineering Pilot Were Effectively
Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

                               Office of Audit Comment: We still believe revenue agents
                               should be required to prepare Engagement Agreements and
                               provide them to the taxpayers or their representatives.
                               Engagement Agreements would help ensure revenue agents
                               and taxpayers clearly understand their responsibilities and
                               expectations.
                               5. Require revenue agents to record the MCD on the
                                  Engagement Agreement. Also, the Director should add
                                  the MCD as a field on the Examination Returns Control
                                  System7 and direct group managers to monitor MCDs to
                                  identify potential timeliness and inventory management
                                  issues.
                               Management’s Response: SB/SE Division management did
                               not agree with our recommendation. They believe current
                               procedures are sufficient to ensure revenue agents establish
                               and provide the MCDs to taxpayers or their representatives.
                               They also believe requirements for revenue agents to update
                               the Activity Record and notify the group manager and
                               taxpayer of changes to the MCD of more than 30 calendar
                               days are sufficient for group managers to monitor the MCD.
                               Office of Audit Comment: We continue to believe
                               additional controls are necessary to ensure revenue agents
                               discuss and provide MCDs to taxpayers or their
                               representatives. Additional controls would also help ensure
                               group managers take a more proactive approach to
                               monitoring MCDs for timeliness and would provide them
                               with a systemic means by which to do this.




                               7
                                 The Examination Returns Control System is a computer system the
                               Examination function uses to enter and update controls over tax returns
                               in the examination stream.




                                                                                              Page 13
          Many Aspects of the Field Examination Reengineering Pilot Were Effectively
     Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

                                                                                       Appendix I


                         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Field Examination
Reengineering Pilot met its established goals. To accomplish our objective, we:
I.        Evaluated the implementation of the Pilot.
          A. Determined whether new procedures were implemented.
             1. Interviewed the Field Examination Reengineering Project Team to determine
                which new procedures have been implemented.
             2. Interviewed group managers to determine how their responsibilities have changed
                under the reengineered audit process.
             3. Interviewed revenue agents to determine how their responsibilities have changed
                under the reengineered audit process.
             4. Reviewed files for a random sample of 42 closed cases, from an approximate
                population of 122, for evidence that new procedures were implemented. We
                selected a random sample to avoid bias.
          B. Determined whether new procedures were working as intended.
             1. Using the random sample of 42 closed cases in Step I.A.4., reviewed files for
                evidence that new procedures were followed.
II.       Evaluated the oversight process of the Pilot.
          A. Interviewed the Field Examination Reengineering Project Team to determine how
             oversight was provided.
             1. Reviewed results of monthly site visits conducted by the Project Team.
             2. Identified actions taken during the monthly site visits.
             3. Determined how the Project Team used the results of the site visits.
             4. Identified other methods used by the Project Team to provide oversight to the
                Pilot.
III.      Evaluated the measurement process of the Pilot results.
          A. Interviewed the Field Examination Reengineering Project Team to determine how
             results were captured.
          B. Interviewed the Field Examination Reengineering Project Team to determine how the
             Pilot’s level of success was measured.
                                                                                           Page 14
         Many Aspects of the Field Examination Reengineering Pilot Were Effectively
    Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

         C. Obtained a download of cases, closed in Fiscal Years 2002 and 2003, from the
            Examination Quality Measurement System (EQMS).1
            1. Calculated results of the Pilot cases.
                a)       Compared our results to the results identified by the Internal Revenue
                         Service.
                b)       Compared our results to the results of non-Pilot cases.
                c)       Determined if the Pilot cases met the stated objectives of the Pilot,
                         including a reduction in hours per return, a reduction in cycle time, the
                         maintenance of or an improvement in examination quality, an increase in
                         employee satisfaction, and an increase in customer satisfaction.




1
 The EQMS is the program used by the Small Business/Self-Employed Division to measure examination quality
and assess long-term trends of performance.
                                                                                                    Page 15
      Many Aspects of the Field Examination Reengineering Pilot Were Effectively
 Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Amy L. Coleman, Audit Manager
Todd M. Anderson, Senior Auditor
Pillai Sittampalam, Senior Auditor




                                                                                       Page 16
      Many Aspects of the Field Examination Reengineering Pilot Were Effectively
 Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Acting Director, Compliance, Small Business/Self-Employed Division SE:S:C
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S:C




                                                                                 Page 17
     Many Aspects of the Field Examination Reengineering Pilot Were Effectively
Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout

                                                                      Appendix IV


                 Management’s Response to the Draft Report




                                                                            Page 18
     Many Aspects of the Field Examination Reengineering Pilot Were Effectively
Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout




                                                                            Page 19
     Many Aspects of the Field Examination Reengineering Pilot Were Effectively
Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout




                                                                            Page 20
     Many Aspects of the Field Examination Reengineering Pilot Were Effectively
Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout




                                                                            Page 21
     Many Aspects of the Field Examination Reengineering Pilot Were Effectively
Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout




                                                                            Page 22
